No. 20-794
IN THE SUPREME COURT OF THE UNITED STATES
SERVOTRONICS, INC., PETITIONER
v.
ROLLS-ROYCE PLC, ET AL.
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the MOTION OF THE UNITED STATES FOR LEAVE TO PARTICIPATE IN ORAL
ARGUMENT AS AMICUS CURIAE AND FOR DIVIDED ARGUMENT, via e-mail and
first-class mail, postage prepaid, this 28TH day of June 2021.
[See Attached Service List]

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

June 28, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice,
in addition to mailing your brief via first-class mail, we would appreciate a fax or
email copy of your brief. If that is acceptable to you, please fax your brief to
Charlene Goodwin, Supervisor, Case Management, Office of the Solicitor
General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms.
Goodwin’s phone number is (202) 514-2217 or 2218. Thank you for your
consideration of this request.

20-0794
SERVOTRONICS, INC.
ROLLS-ROYCE PLC, ET AL.

EKATERINA HRISTOVA APOSTOLOVA
FRESHFIELDS BRUCKHAUS DERINGER
SINGAPORE PTE LTD
10 COLLYER QUAY 42-01
OCEAN FINANCIAL CENTRE
SINGAPORE, XX 049315
,
KATE.APOSTOLOVA@FRESHFIELDS.COM
LISA SCHIAVO BLATT
WILLIAMS & CONNOLLY LLP
725 12TH STREET, NW
WASHINGTON, DC 20005
202-434-5050
LBLATT@WC.COM
JEFFREY S. BUCHOLTZ
KING & SPALDING LLP
1700 PENNSYLVANIA AVENUE, NW
SUITE 200
WASHINGTON, DC 20006-4707
202-737-0500
JBUCHOLTZ@KSLAW.COM
LAREN L LACEY HAERTLEIN
GENERAL AVIATION MANUFACTURERS
ASSOCIATION
1400 K ST NW.
SUITE 801
WASHING, DC 20005
202-393-1500
LHAERTLEIN@GAMA.AERO

TIMOTHY PAUL HARKNESS
FRESHFIELDS BRUCKHAUS DERINGER US
LLP
601 LEXINGTON AVENUE
31ST FLOOR
NEW YORK, NY 10022
212-230-4619
TIMOTHY.HARKNESS@FRESHFIELDS.COM
DEREK T. HO
KELLOGG,HANSEN,TODD,FIGEL &
FREDERICK,P.L.L.C.
SUMNER SQUARE
1615 M STREET, NW
SUITE 400
WASHINGTON, DC 20036-3215
202-326-7900
DHO@KELLOGGHANSEN.COM
KATHERINE BURGHARDT KRAMER
DGW KRAMER LLP
ONE ROCKEFELLER PLAZA
SUITE 1060
NEW YORK, NY 10020
917-888-2585
KKRAMER@DGWLLP.COM
SCOTT PAYNE MARTIN
PERKINS COLE LLP
1201 THIRD AVENUE
SUITE 4900
SEATTLE, WA 98101
206-359-3600
SMARTIN@PERKINSOLE.COM

MICHAEL HUGH MCGINLEY
DECHERT LLP
1900 K STREET, NW
WASHINGTON, DC 20006
202-261-3378
MICHAEL.MCGINLEY@DECHERT.COM
ROBERT PAUL PARKER
ROTHWELL, FIGG, ERNST & MANBECK, P.C.
607 14TH ST. NW
SUITE 800
WASHINGTON, DC 20005
202-783-6040
RPARKER@RFEM.COM
JOHN B. PINNEY
GRAYDON HEAD & RITCHEY LLP
312- WALNUT STREET,
SUITE 1800
CINCINNATI , OH 45202
513-629-2730
JPINNEY@GRAYDON.LAS
PETER BOWMAN RUTLEDGE
215 MORTON AVENUE
ATLANTA, GA 30605
706-206-7183
BORUTLEDGE70@GMAIL.COM
STEPHEN R. STEGICH
CONDON & FORSYTH
7 TIMES SQUARE
18TH FLOOR
NEW YORK, NY 10036
917-940-0272
SSTEGICH@CONDONLAW.COM

ANDREW J. TUCK
ALSTON AND BIRD LLP
1201 WEST PEACHTREE STREET
ATLANTA, GA 30309
404-881-7134
ANDY.TUCK@ALSTON.COM
HENRY SABATH WEISBURG
SHEARMAN AND STERLING LLP
599 LEXINGTON AVENUE
NEW YORK, NY 10022
212-848-4000
HWEISBURG@SHEARMAN.COM

